CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.2(b), Petitioner certifies that this Petition complies with the page
limitation in that rule. According to Microsoft Word 2019, the word processing program used to
produce this Petition, it contains 40 pages.
Respectfully Submitted,

Dated: February 1. 2021

Emem U. Udoh,
Pro se Litigant, 245042
7600 525th Street
Rush City, MN 55069

CERTIFICATE OF SERVICE

March 01, aoai
On FcbgwtEPvOl 2021. Petitioner hereby certify that a copy of the following documents:
A

1. Motion for Leave to Proceed In Forma Pauperis;
2. Petition for a Writ of Certiorari; and
3. Appendix.
was served upon the Clerk of the United States Supreme Court, properly addressed to Clerk’s Office
at One First Street North East, Washington, D.C. 20543, and on every other person required to be
served by U.S. Mail as follows:
KEITH ELLISON
Minnesota Attorney General
1400 Bremer Tower, Suite 1800
445 Minnesota Street
St. Paul, MN 55101

PETITION by Udoh - Page 41

MICHAEL O. FREEMAN
Hennepin County Attorney
KELLY O’NEILL MOLLER
Assistant Hennepin County Attorney
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487

March 1, Slcai
Dated: February 1. 2021

Respectfully Submitted,

Emem U. Udoh,
Pro se Litigant, 245042
7600 525th Street
Rush City, MN 55069

PETITION by Udoh - Page 42

